IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1822
AMBER BROOKS, ET AL.,
PETITIONERS,
V.
MENTOR WORLDWIDE LLC,
RESPONDENT.
CERTIFICATE OF SERVICE
I hereby certify that on July 20, 2021, I electronically filed the foregoing with
the Clerk of the Court for the United States Supreme Court. I further certify that on
this day, I sent to this Court one copy of the foregoing via Federal Express. I further
certify that, as required by S. Ct. R. 29.3, I served one copy of the foregoing via
Federal Express and email upon counsel for Petitioners:
Anthony Anderson Benton Dogali
Dogali Law Group, P.A.
19321 U.S. Highway 19 N., Suite 307
Clearwater, FL 33764
813-289-0700
adogali@dogalilaw.com
I further certify that all parties required to be served have been served.
/s/Dustin B. Rawlin
Dustin B. Rawlin
Counsel of Record for Respondent
Mentor Worldwide LLC

5221759.1

